No. 20-47

In the Supreme Court of the United States
LEBAMOFF ENTERPRISES, INC., ET AL., PETITIONERS
V.

GRETCHEN WHITMER, ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE
Attorney for Respondents Governor Gretchen Whitmer, Attorney General
Dana Nessel, and MLCC Chairperson Pat Gagliardi, hereby certifies that the foregoing Brief in Opposition complies with the type-volume limitation of Supreme Court
Rule 33.1(g)(ii), in that the word-processing system used to prepare the brief indicates
that the brief contains 4,567 words.
Respectfully submitted,
Dana Nessel
Michigan
g Attorney
y General

Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Attorneys for Respondents

